Nos. 19-840, 19-1019
In The

Supreme Court of the United States
California, et al., Petitioners,
v.
Texas, et al., Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
Texas, et al., Cross-Petitioners,
v.
California, et al., Cross-Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
BRIEF OF AMICI CURIAE
SERVICE EMPLOYEES INTERNATIONAL UNION,
MARILYN RALAT-ABERNAS, R.N., MARCUS SANDLING,
M.D., ET AL., IN SUPPORT OF PETITIONERS IN NO. 19-840
AND CROSS-RESPONDENTS IN NO. 19-1019
Nicole G. Berner, General Counsel
Counsel of Record
Renee M. Gerni, Associate General Counsel
Claire Prestel, Associate General Counsel
John M. D’Elia, Assistant General Counsel
Monica Jin Joo Wilk, Law Fellow
Service Employees International Union
1800 Massachusetts Avenue NW
Washington, D.C. 20036
(202) 730-7466
Counsel for Amici Curiae
May 13, 2020
Mosaic - (301) 927-3800 - Cheverly, MD

49261_Ltrhd.indd

1

6/11/08

12:44:0

i
TABLE OF CONTENTS
Table of authorities...........................................

Page
iii

Interests of amici curiae...................................

1

Introduction and summary of argument.........

3

Argument...........................................................

5

I. The Fifth Circuit’s decision is wrong.........

5

A. The individual and state plaintiffs
have no Article III standing.................

5

B. The 2017 tax law did not render the
minimum coverage provision
unconstitutional....................................

7

C. Even if the minimum coverage
provision is unconstitutional, it is
plainly severable from the rest of
the ACA.................................................

8

II. Invalidating the ACA would result in
unnecessary illness, death, and economic
devastation..................................................

9

A. People will get sick and die if the
ACA falls................................................

9

1. The ACA has made healthcare
more widely available than ever
before by increasing the number
of insured Americans through
federal subsidies............................

9

2. Comprehensive health insurance
coverage ensures that life-saving
care is available to those who need
it the most......................................

12

ii
TABLE OF CONTENTS—Continued
Page


3. The quality of healthcare in the
United States will deteriorate
without the ACA’s protections......

18

B. A decision striking down the ACA
will weaken the American economy.....

22

1. Americans need access to
affordable healthcare to support
themselves and their families.......

23

2. The ACA has stabilized the
healthcare system by creating
reliable streams of funding for
hospitals that serve low-income
communities...................................

26

Conclusion.........................................................

27

iii
TABLE OF AUTHORITIES

Page

CASES
Ayotte v. Planned Parenthood,
546 U.S. 320 (2006) ......................................

8

Clapper v. Amnesty Int’l USA,
568 U.S. 398 (2013).......................................

5

Int’l Shortstop v. Rally’s,
939 F.2d 1257 (5th Cir. 1991).......................

6

Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992).......................................

5

Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012).......................................

7

Poe v. Ullman,
367 U.S. 497 (1961).......................................

5, 6

STATUTES
26 U.S.C. § 5000A.............................................

4

Coronavirus Aid, Relief, and Economic
Security Act, Pub. L. 116-136, § 1112(b)......

7

Coronavirus Aid, Relief, and Economic
Security Act, Pub. L. 116-136, § 3221(k).....

7

OTHER AUTHORITIES
Ge Bai et al.,
Charity Care Provision by US Nonprofit
Hospitals,
180 JAMA Internal Med. 606 (2020)...........

26

Chintan B. Bhatt et al.,
Medicaid Expansion and Infant Mortality
in the U.S.,
108 Am. J. Pub. Health 565 (2018)..............

20

iv
TABLE OF AUTHORITIES—Continued
Page


David Blumenthal et al.,
The Affordable Care Act at 10 Years-Its
Coverage and Access Provisions,
382 New England J. Med. 963 (2020)..........

10, 13

Susan Camilleri,
The ACA Medicaid Expansion,
Disproportionate Share Hospitals, and
Uncompensated Care,
53 Health Servs. Res. 1562 (2018)...............

26

Kyle J. Caswell & Timothy A. Waidmann,
The Affordable Care Act Medicaid
Expansions and Personal Finance,
276 Med. Care Res. & Rev. 538 (2017)..........

23

Gary Claxton et al.,
Pre-Existing Condition Prevalence for
Individuals and Families,
Kaiser Family Found. (Oct. 4, 2019)............

13

Allen Dobson et al.,
Comparing the Affordable Care Act’s
Financial Impact on Safety-Net Hospitals
in States that Expanded Medicaid and
Those that Did Not,
Commonwealth Fund (2017)........................

26

John A. Graves & Katherine Swartz,
Effects of Affordable Care Act Marketplaces
and Medicaid Eligibility Expansion on
Access to Cancer Care,
23 Cancer J. 168 (2017)................................

21

Madeline Guth et al.,
The Effects of Medicaid Expansion Under the
ACA (2020), available at http://files.kff.org/

v
TABLE OF AUTHORITIES—Continued
Page


attachment/Report-The-Effects-of-MedicaidExpansion-under-the-ACA-UpdatedFindings-from-a-Literature-Review.pdf
Kaiser Family Found. (last visited
May 6, 2020)..................................................

10

Xuesong Han et al.,
Comparison of Insurance Status and
Diagnosis Stage Among Patients With
Newly Diagnosed Cancer Before vs. After
Implementation of the Patient Protection
and Affordable Care Act,
4 JAMA Oncology 1713 (2018).....................

21

Shiho Kino et al.,
Spillover Benefit of Improved Access to
Healthcare on Reducing Worry About
Housing and Meal Affordability,
17 Int’l J. for Equity in Health 1 (2018)......

23

Gerald F. Kominski et al.,
The Affordable Care Act’s Impacts on
Access to Insurance and Health Care for
Low-Income Populations,
38 Ann. Rev. Pub. Health 489 (2017)............

9, 11

Lena Leszinsky & Molly Candon,
Primary Care Appointments for Medicaid
Beneficiaries with Advanced Practitioners,
17 Annals of Family Med. 363 (2019)..........

18

Michelle P. Lin et al.,
Trends in Emergency Department Visits
and Admission Rates Among US Acute
Care Hospitals,
178 JAMA Internal Med. 1708 (2018).........

21

vi
TABLE OF AUTHORITIES—Continued

Autoimmune Lymphoproliferative Syndrome
(ALPS), Nat’l Inst. of Health (Apr. 19, 2019),
available at https://www.niaid.nih.gov/
diseases-conditions/autoimmunelymphoproliferative-syndrome-alps.............

Page

17

Autoimmune Lymphoproliferative Syndrome
(ALPS) Symptoms & Diagnosis, Nat’l Inst.
of Health (Apr. 19, 2019), available at
https://www.niaid.nih.gov/diseasesconditions/alps-symptoms-diagnosis............

17

Sayeh S. Nikpay et al.,
Patient Protection and Affordable Care
Act Medicaid Expansion and Gains in
Health Insurance Coverage and Access
Among Cancer Survivors,
124 Cancer 2645 (2018)................................

16

Tyan D. Nippo et al.,
Patterns in Health Care Access and
Affordability Among Cancer Survivors
During Implementation of the Affordable
Care Act,
4 JAMA Oncology 791 (2018).......................

16

Adam J. Singer et al.,
U.S. Emergency Department Visits and
Hospital Discharges Among Uninsured
Patients Before and After Implementation
of the Affordable Care Act,
2 JAMA Network Open 1 (2019)..................

18, 21

Anna Jo Smith & Amanda Fader,
Effects of the Affordable Care Act on Young
Women With Gynecologic Cancers,
131 Obstetrics & Gynecology 966 (2018).....

21

vii
TABLE OF AUTHORITIES—Continued

Aparna Soni et al.,
How Have ACA Insurance Expansions
Affected Health Outcomes? Findings From
the Literature,
39 Health Aff. 371 (2020)..............................
Alyssa Tilhou et al.,
The Affordable Care Act Medicaid
Expansion Positively Impacted Community
Health Centers and Their Patients,
35 J. Gen. Internal Med. 1292 (2020)..........

Page

18

26

1
INTERESTS OF AMICI CURIAE1
The Service Employees International Union
(SEIU) is the largest healthcare union in the United
States. More than half of SEIU’s two million members work in the healthcare industry. SEIU supports
the Patient Protection and Affordable Care Act (ACA)
because it helps to ensure accessible, quality healthcare for all Americans, including SEIU members and
their families.
Michelle Boyle, R.N., is a registered nurse at a
large city hospital in Pittsburgh, Pennsylvania. Ms.
Boyle has been a nurse for 26 years and has noticed
that since enactment of the ACA, patients are more
likely to go to the doctor for preventive care rather
than wait until emergency room care is necessary.
Maleta Christian is a personal support worker
from Roseburg, Oregon. Ms. Christian previously
lost her job as a preschool teacher and, as a result,
lost her health insurance coverage. When she became
a personal support worker in 2013, however, she began receiving affordable health coverage through a
trust made possible by the ACA’s cost savings and
tax credits.
Kristen Edwards, Ph.D., is a history professor in
California and a member of SEIU Local 1021. Ms. Edwards underwent treatment for breast cancer in 2009
and, after her recovery, struggled to obtain health insurance before the ACA went into effect because of insurer discrimination against her on the basis of her
This brief was not authored in whole or in part by counsel for
a party and no one other than amici curiae and their counsel
made a monetary contribution to the preparation or submission
of this brief. All parties have consented to the filing of this brief.
1

2
pre-existing condition. Both Ms. Edwards and her
husband, who has a congenital heart condition, would
be once again subject to pre-existing condition discrimination if the ACA were to fall.
Eva Hagberg, Ph.D., is a 37-year-old author, consultant, and architectural historian who has survived
a slew of life-threatening conditions including a brain
hemorrhage, a damaged pituitary gland, a congenital
heart defect, and multiple ovarian cysts. Ms. Hagberg
was subject to a $400,000 lifetime coverage cap before
the ACA, a limit far exceeded by the actual costs of her
care. If the ACA were to fall, Ms. Hagberg would not
be able to afford the care she needs to stay alive.
Cammie Hering is a personal support worker and
member of SEIU Local 503 from Portland, Oregon. Ms.
Hering has relapsing-remitting multiple sclerosis, a
potentially disabling chronic illness. Ms. Hering relies
on ACA-provided subsidies to obtain health insurance.
She earns less than $16 per hour and would not be
able to afford health insurance without the ACA.
Joseph Palma is a 41-year-old man who suffers
from a congenital cardiac condition and severe asthma, which have caused him to experience four strokes
and two heart attacks. Mr. Palma could not afford
health insurance before the ACA, but he has now secured coverage thanks to an ACA-provided federal
subsidy. If the ACA were invalidated, Mr. Palma
would lose the assistance he relies on to access
healthcare.
Marilyn Ralat-Abernas, R.N., of Miami, Florida
is a registered nurse with more than 15 years of experience in a hospital maternity unit. Ms. Ralat-Albernas has seen improved health outcomes for mothers
and infants since enactment of the ACA.

3
Dakota Staggs is a 24-year-old graduate student
studying natural resource sciences at the University
of Nebraska. Mr. Staggs was born with autoimmune
lymphoproliferative syndrome (ALPS), an incurable
genetic disorder that compromises his immune system. Thanks to the ACA, Mr. Staggs will be covered
by his parents’ health insurance plan until he turns
26, enabling him to receive the care he needs while he
pursues his education.
Marcus Sandling, M.D., is a primary care physician at the Callen-Lorde Community Health Center
in New York. He has noticed that his patients are
less likely to neglect their health if they are able to
access coverage under the ACA. More affordable
healthcare and better access to health insurance
have made it easier for Dr. Sandling to maintain relationships with his patients and refer them to necessary specialists.
Amy Zhang, M.D., is a physician in her second
year of residency in anesthesiology at the University
of Washington. Dr. Zhang, a graduate of Yale School
of Medicine, is a first generation American whose family could not afford regular access to healthcare while
she was growing up. Her mother had to travel outside
the country to obtain essential treatment because she
could not afford care in the United States. Because of
the ACA, Dr. Zhang’s parents no longer need to leave
the country to afford medical treatment.
INTRODUCTION AND
SUMMARY OF ARGUMENT
It is easy to forget now, as the country battles its
way through the Coronavirus crisis, but 2017 saw
some of the most turbulent political fights ever to play
out in Washington. Congress considered two major

4
items: legislation to repeal the central provisions of
the ACA and legislation to overhaul federal tax rates
for corporations and individuals. Americans on all
sides of both efforts flooded the halls of power. After
much debate, Congress rejected the ACA repeal legislation and passed the tax legislation.
The tax law reduced to zero the ACA’s tax penalty
for not obtaining insurance but otherwise left the
ACA intact. As a result, those who violate the ACA’s
“individual mandate” by failing to obtain insurance
must pay the government zero dollars. 26 U.S.C.
§ 5000A. According to the ACA’s challengers, Congress’s decision to reduce the consumer penalty made
the individual mandate invalid, and, even more remarkably, invalidated sub silentio all of the ACA’s
other provisions that Congress had pointedly decided
not to repeal.
The challengers’ claims fail even before one reaches their merits: None of the state or individual plaintiffs has Article III standing because the ACA’s zerodollar penalty has caused them zero demonstrable
harm. Even if one were to reach the merits, the challengers’ claims fail because there are reasonable
constructions of the tax law that preserve the ACA’s
validity. In the final analysis, plaintiffs’ arguments
are an effort to win in this Court the policy battle
that the ACA’s opponents lost in Congress. But making law contrary to the will of Congress is not this
Court’s role.
What makes the ACA challengers’ arguments particularly pernicious is the real-world threat that they
pose to millions of Americans’ health, economic security, and lives. This brief tells the stories of Americans
who depend on the ACA and describes the physical
and economic harm they would suffer if the law were

5
invalidated. There could be no worse time for such an
outcome, and thankfully it is easy to avoid because
plaintiffs lack standing, and the decision below is
wrong on the merits.
ARGUMENT
I. The Fifth Circuit’s decision is wrong.
A. The individual and state plaintiffs have
no Article III standing.
“[T]he irreducible constitutional minimum of standing” requires both (1) “an injury in fact . . . which is . . .
concrete and particularized; and . . . actual or imminent” and (2) “a causal connection between the injury
and the conduct complained of[.]” Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560 (1992) (internal quotation marks and citations omitted). In other words,
plaintiffs’ injury “has to be fairly traceable to the challenged action of the defendant.” Id.
Neither the individual plaintiffs nor the state
plaintiffs have offered evidence of any injury in fact
that is traceable to the individual mandate. Even if
the individual mandate is construed as a legal “command,” the individual plaintiffs may “disregard that
command without legal consequence,” and, “[t]herefore, any injury they incur by freely choosing to obtain insurance is still self-inflicted.” J.A. 456–57
(King, J., dissenting). Parties may not “manufacture
standing merely by inflicting harm on themselves.”
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 416
(2013).
This Court’s decision in Poe v. Ullman, 367 U.S.
497 (1961) is instructive. There, the Court found
that parties lacked standing to challenge a Connecticut prohibition on contraception that had never

6
been seriously enforced, ruling that “[t]he fact that
Connecticut has not chosen to press the enforcement
of this statute deprives these controversies of the
immediacy which is an indispensable condition of
constitutional adjudication.” J.A. 458 (King, J., dissenting) (quoting Ullman, 367 U.S. at 508). As the
dissent below correctly observes, Ullman “makes
this an easy case” because there the “contraception
law at least allowed the possibility of enforcement,”
whereas here “[i]t is impossible for the individual
plaintiffs to ever be prosecuted (or face any other
consequences) for violating [the mandate].” J.A. 459
(King, J. dissenting).
The state plaintiffs likewise lack standing. While
they claim that the mandate increases enrollment
in state healthcare programs, state plaintiffs present no evidence that such enrollments occur “solely
because of the unenforceable coverage requirement.” J.A. 463 (King, J., dissenting). And at this
stage in the case, state plaintiffs “must produce evidence so conclusive of the coverage requirement’s
effect on their healthcare-administration costs that
the evidence would entitle them to a directed verdict if the evidence went uncontroverted at trial.”
J.A. 462 (King, J., dissenting) (internal quotation
marks omitted) (quoting Int’l Shortstop v. Rally’s,
939 F.2d 1257, 1264–65 (5th Cir. 1991)). As Judge
King explained, “state plaintiffs provided no evidence at all, never mind conclusive evidence.” J.A.
462–63 (King, J., dissenting). This leaves state
plaintiffs without the traceable “injury in fact” that
this Court’s standing jurisprudence requires.
Because “[n]obody has standing to challenge a law
that does nothing[,]” plaintiffs may not challenge the
individual mandate. J.A. 451 (King, J., dissenting).

7
B. The 2017 tax law did not render the
minimum coverage provision
unconstitutional.
The “basic lesson” of this Court’s decision in NFIB is
that courts have a “duty to construe a statute to save it,
if fairly possible.” Pet. 21; Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 574 (2012) [hereinafter NFIB]
(Roberts, C.J.) (emphasis added). Discharging that duty
here is easy: The individual mandate, as amended by
the 2017 tax law, may be upheld as a “precatory” provision similar to, for example, the many provisions of the
U.S. Code expressing a “sense of Congress” that individuals “should” or “are encouraged to” do something
without actually enforcing any requirement. Pet. 21–22.
Such unenforceable provisions are a common product of
the legislative process and may be found in legislation
as recent as the Coronavirus “stimulus” law. See Coronavirus Aid, Relief, and Economic Security Act, Pub. L.
116-136, § 1112(b) (“It is the sense of Congress that . . .
the Administration should encourage lenders to provide
payment deferments”) (emphasis added); id. at § 3221(k)
(“It is the sense of the Congress that . . . any person
treating a patient . . . is encouraged to access the applicable State based prescription drug monitoring program
when clinically appropriate”) (emphasis added). Alternatively, the individual mandate may be upheld as a
continued exercise of the taxing power, “albeit one whose
practical operation is currently suspended[,]” with Congress merely choosing to leave the skeleton of the tax
provisions in place should it later decide to increase the
tax penalty from zero to another amount. Pet. 22.
Rather than adopting one of these reasonable, constitutional constructions, the Fifth Circuit went out of
its way to find the individual mandate unconstitutional. For that reason alone, NFIB requires reversal of
the decision below.

8
C. Even if the minimum coverage provision
is unconstitutional, it is plainly severable
from the rest of the ACA.
The individual mandate is severable from the rest
of the ACA because Congress severed it. After rejecting legislation to repeal the ACA in July 2017, Congress chose in December to overhaul federal tax rates,
including by zeroing out the ACA-imposed tax penalty, but it left the ACA’s remaining provisions intact.
This is an obvious indication that Congress considered
the individual mandate severable from the other provisions of the ACA.
The “touchstone” of severability “is legislative intent, for a court cannot use its remedial powers to circumvent the intent of the legislature.” Ayotte v.
Planned Parenthood, 546 U.S. 320, 330 (2006) (internal quotation marks and citations omitted). Here, the
Fifth Circuit gave the district court license to conduct
just such a “remedial exercise.” Pet. 25. While the
Fifth Circuit was “just as competent as the district
court” to “analyz[e] the statute’s text and historical
context,” it opted instead to launch a completely unnecessary district court proceeding purportedly to discover whether the individual mandate is severable
from the rest of the ACA when the answer is already
obvious in light of Congress’s decision to address it
separately. J.A. 475 (King, J., dissenting).
Because Congress plainly intended the rest of the
ACA to operate without the individual mandate, a remand is legally unnecessary. In this context, especially
amid this crisis, the idea of a remand is also morally
repugnant. Sending this case back to the district court
will (at a minimum) cast a pall of uncertainty over the
insurance coverage that millions of Americans rely on
to keep themselves and their families healthy.

9
II. Invalidating the ACA would result in
unnecessary illness, death, and economic
devastation.
The ACA allows millions of Americans to obtain
medical care without risking financial ruin. Invalidating it would cause sickness, death, and vast economic
harm, as the experiences of healthcare consumers and
providers show.
A. People will get sick and die if the ACA falls.
The ACA has provided millions of Americans with
affordable health insurance, implemented critical reforms to the individual insurance market, and improved the quality of healthcare in the United States.
As both healthcare consumers and providers attest
below, the ACA has improved the health of the American public and saved countless lives by expanding access to affordable, comprehensive care.
1. The ACA has made healthcare more
widely available than ever before by
increasing the number of insured
Americans through federal subsidies
and Medicaid expansion.
Under the ACA, more Americans are covered by
health insurance than ever before. In 2010, prior to
passage of the ACA, more than 48 million Americans
went without health insurance; by 2016, that number
had shrunk to 28.6 million. Nearly 15 million low-income Americans gained coverage through the ACA’s
Medicaid expansion.2 Federal subsidies have enabled
Gerald F. Kominski, et al., The Affordable Care Acts Impacts
on Access to Insurance and Health Care for Low-Income Populations, 38 Ann. Rev. Pub. Health 489, 491 (2017).
2

10
millions more to purchase private insurance through
ACA exchanges.3 In addition, since the ACA’s first
open enrollment period in 2013, more than 15 million
new individuals have enrolled in Medicaid and the
Children’s Health Insurance Program (CHIP).4 All
but 14 states have opted-into Medicaid expansion,5
and a number of studies show that coverage gains in
Medicaid expansion states is particularly striking for
vulnerable populations.6
Because of the ACA’s federal subsidies, Joseph Palma can afford life-saving medical treatment. Mr. Palma is a 41-year-old man from Florida who suffers from
a congenital cardiac condition and severe asthma,
which have caused him to experience four strokes and
two heart attacks. If he misses his medication for even
a week, his conditions will quickly become fatal.

3
The ACA subsidizes the purchase of private insurance for
people without employer-provided coverage or access to public
programs like Medicaid. Before the ACA, the cost of coverage in
the individual market was prohibitively expensive for many
Americans. See David Blumenthal, et al., The Affordable Care
Act at 10 Years—Its Coverage and Access Provisions, 382 New
England J. Med. 963, 964 (2020).
4

Kominski et al., supra n.2, at 491.

5

See, e.g., Blumenthal, et al., supra n.3, at 964.

Madeline Guth et al., Kaiser Family Found., The Effects of
Medicaid Expansion Under the ACA 6 (2020), available at http://
files.kff.org/attachment/Report-The-Effects-of-Medicaid-Expansionunder-the-ACA-Updated-Findings-from-a-Literature-Review.
pdf (last visited May 6, 2020). This includes “lesbian, gay, and
bisexual adults, the unemployed, low-income workers, justiceinvolved individuals, homeless individuals, noncitizens, people
living in households with mixed immigration status, migrant
and seasonal agricultural workers, and early retirees” and also
veterans and people with disabilities, substance use disorders,
HIV, diabetes, cancer, and cardiovascular disease. Id.
6

11
Mr. Palma needs health insurance to manage his
medical conditions but struggled to find an affordable
plan before the ACA was enacted. While he was uninsured, Mr. Palma suffered from his second stroke and
was hospitalized. He left with a bill for $10,000 in
medical expenses that he was unable to pay.
Although Mr. Palma’s most recent employer offered
health insurance benefits, the premiums were prohibitively expensive. The cost of enrolling in the employer’s plan amounted to $458 each month, a huge percentage of Mr. Palma’s income. At the time, Mr. Palma
earned $17.06 an hour; after payroll deductions for
health benefits, he would effectively be earning $12.99
an hour, decreasing his income by nearly 25%.
After the ACA was enacted, federal subsidies enabled Mr. Palma to purchase individual insurance
through the marketplace for a fraction of the price of
his employer’s health plan. When he enrolled, his premiums cost only $81 per month. Moreover, his subsidized health plan provided significantly better coverage than his former employer’s plan. “I have had great
success with [the ACA],” Mr. Palma said “With the
marketplace, they treat you very well and make sure
you can pay.”
Mr. Palma believes the ACA helps the most vulnerable members of our society and prevents health insurance companies from trying to avoid providing
healthcare. “All you will do by getting rid of the ACA
is kill more people,” he said. “It does not make sense to
get rid of this program because it is better to pay for
health, and not for death.”
For Dr. Amy Zhang, the expansion of Medicaid enabled her parents to obtain health insurance for the
first time in their lives. Dr. Zhang is an anesthesiology

12
resident at the University of Washington in her second year of training after graduating from Yale School
of Medicine. She is a first generation American whose
parents emigrated from China. Her family was very
poor and could not afford regular healthcare while she
was growing up because they did not have health insurance. She remembers going years without seeking
healthcare because her family was unable to pay the
costs out of pocket.
If Dr. Zhang’s family needed medical treatment,
they would travel to China, where the cost of care was
significantly lower. When her mother discovered a
mass in her chest, she could only afford to have it removed in China. Treating her condition in the United
States would have been prohibitively expensive without health insurance.
Because of the ACA, Dr. Zhang’s parents no longer
need to leave the country to obtain healthcare. Her
home state expanded Medicaid after the ACA was
passed, providing Dr. Zhang’s parents with both
health insurance and dental insurance. Dr. Zhang
feels incredibly relieved that her parents can now afford healthcare, particularly as they get older. Because the expansion of Medicaid is the only reason
they could obtain coverage, striking down the ACA
will once again render the American healthcare system inaccessible to Dr. Zhang’s parents.
2. Comprehensive health insurance
coverage ensures that life-saving care
is available to those who need it the
most.
In addition to improving the availability of health
insurance through federal subsidies, the ACA has also
made coverage more comprehensive by reforming the

13
private individual insurance market. The ACA’s
“guaranteed issue” and “community rating” provisions
ensure that the millions of Americans with preexisting medical conditions—by one estimate 27% of adults
under the age of 657—have the same access to coverage as healthy individuals. And because of the ACA’s
dependent-coverage provision, the uninsured rate
among adults younger than 26 years old has fallen
from over a third in 2010 to 15% in recent years.8 The
ACA has also expanded the scope of coverage by banning lifetime and annual limits on coverage and requiring that insurers cover essential health benefits.
The ACA’s reforms have saved Eva Hagberg’s life
many times. Ms. Hagberg is a 37-year-old author, consultant, and architectural historian. In the last seven
years, she has survived a series of life-threatening
medical conditions, including a brain hemorrhage, a
damaged pituitary gland, a dangerous congenital
heart defect, and multiple ovarian cysts. By prohibiting lifetime limits on insurance benefits, the ACA
saved Ms. Hagberg’s life. “It has cost various insurance companies over $1,000,000 to keep me alive. Before the ACA, I was facing a $400,000 lifetime cap,”
she said. Lacking the resources to pay over $600,000
in medical expenses, Ms. Hagberg would have died
without receiving the treatment she needed.
Ms. Hagberg never struggled with serious health issues before 2013, when she fainted and had to be hospitalized. An MRI of her brain revealed that a mass

Gary Claxton et al., Kaiser Family Found., Pre-Existing
Condition Prevalence for Individuals and Families (Oct. 4, 2019),
available at https://www.kff.org/health-reform/issue-brief/preexisting-condition-prevalence-for-individuals-and-families/#.
7

8

Blumenthal et al., supra n.3, at 967.

14
had hemorrhaged behind and into her pituitary gland.
It also showed two potentially cancerous spots in her
brain. Ms. Hagberg had to undergo a biopsy and receive regular MRIs to properly assess her condition.
During the biopsy procedure, her surgeons nicked her
pituitary gland, and she almost died from complications. Because these complications were not fully understood, Ms. Hagberg often had to be rushed to the
emergency room for treatment.
By this point, Ms. Hagberg knew she was rapidly
approaching the $400,000 lifetime cap on her health
insurance coverage. “My surgery was $100,000. The
hospital stay was $100,000. MRIs were $10,000, and I
needed one every three months for at least a couple
years. When I went to the ER, it cost $4,000–$5,000
per visit,” Ms. Hagberg recalled. Unable to ignore her
escalating medical expenses, she began wondering if
she could somehow survive without healthcare. “I’m
already $250,000–$300,000 in the hole, and I know I
have a cap of $400,000,” she said. “So I start rationing
my visits to the ER.”
The ACA completely changed Ms. Hagberg’s life. In
2014, Ms. Hagberg was diagnosed with a congenital
heart condition called Wolff-Parkinson-White syndrome and had to undergo an expensive surgery on
short notice. But because the ACA removed the lifetime cap on her insurance benefits, she no longer had
to worry about whether her health plan would cover
her surgery.
When Ms. Hagberg developed tumors on her ovaries several years later, the ACA’s protections again
ensured that she could receive life-saving medical
treatment. Ms. Hagberg was diagnosed with endometriosis and underwent four surgeries to remove ovarian cysts. Most recently, her doctor removed an endo-

15
metrioma measuring ten centimeters from her ovary
and the remnants of another endometrioma that had
previously ruptured onto her bowels. Had the surgery
been delayed, the cyst probably would have caused
Ms. Hagberg’s ovary to burst, sending her into septic
shock, and she may have needed a bowel resection.
The procedures Ms. Hagberg received cost hundreds
of thousands of dollars, however, and would have easily exceeded her pre-ACA lifetime cap.
Ms. Hagberg’s very life depends on having health insurance that covers preexisting conditions and does not
cap her benefits. Even before factoring in expenses from
medications and emergency room and doctor visits, Ms.
Hagberg estimates that her medical care has cost more
than one million dollars. She is horrified by the concept
of lifetime caps on coverage, which effectively allow insurance companies to determine whether someone lives
or dies based on the cost of their healthcare.
If the ACA is voided and she loses her health insurance, Ms. Hagberg will almost certainly be denied coverage because of her medical history. She believes
that requiring insurance companies to cover preexisting conditions ensures that health plans cover people
who need the most help, not just those who are already healthy. “Being human is a preexisting condition. I don’t know a single person who has gone through
their entire lifetime without needing medical attention,” she said. “Insurance is there to insure against
disasters. It should have a different name if it’s not
going to cover you if you’re sick.”
Kristen Edwards, an adjunct professor of history
from California, has also relied on the ACA’s insurance
reforms to access affordable, comprehensive healthcare. Ms. Edwards was diagnosed with breast cancer in
2009 and eventually made a full recovery after a year of

16
treatment. But when she lost her job in 2011 and began
searching for an individual plan to replace her employer-sponsored health insurance, she was horrified to discover that private insurance companies would not cover
her because of her past diagnosis. “I felt like an outcast
in my own society,” Ms. Edwards said. “It’s a blow that
you can’t get over, finding out that you’re not good
enough for health insurance. It was devastating.”
Ms. Edwards managed to obtain coverage through
COBRA. But not only was the plan incredibly expensive, it also ensured coverage for just three years, after which private insurance companies could again
refuse to cover Ms. Edwards based on her medical history. Fortunately, the ACA was implemented just
months before she lost coverage through COBRA.
Purchasing insurance through the marketplace cost
less than half the price of her COBRA plan. Even more
importantly, the ACA allowed Ms. Edwards to enroll
in health insurance without worrying that her insurer
would immediately reject her application because of
her cancer history. “It was so easy to sign up for health
insurance on the ACA, whereas before it would’ve
been impossible,” she recalled.
The ACA’s Medicaid expansion has also increased
coverage and access to care among low-income adults,
particularly for people with cancer.9 One study found
that Medicaid expansion reduced the number of uninsured cancer survivors by as much as 25%.10
See Sayeh S. Nikpay et al., Patient Protection and Affordable
Care Act Medicaid Expansion and Gains in Health Insurance
Coverage and Access Among Cancer Survivors, 124 Cancer 2645
(2018); Tyan D. Nippo, et al., Patterns in Health Care Access and
Affordability Among Cancer Survivors During Implementation of
the Affordable Care Act, 4 JAMA Oncology 791 (2018).
9

10

Nikpay, et al., supra n.9, at 2648.

17
If the ACA is invalidated, Ms. Edwards worries that
obtaining affordable health insurance may yet again
become impossible. While she has been cancer free for
ten years, she and her husband suffer from other
health conditions that may disqualify them from coverage or cause their rates to rise exponentially.
Ms. Edwards strongly supports the ACA because it
ensures that all Americans can access the healthcare
they need. “Without protections for people with preexisting conditions, health insurance is inherently discriminatory and only protects the healthy, not the
ones who really need healthcare the most,” she said.
Dakota Staggs, a 24-year-old graduate student
studying natural resource sciences at the University
of Nebraska, also benefits significantly from the ACA’s
insurance reforms, which provide him with the protections and security necessary for his independence.
Mr. Staggs was born with autoimmune lymphoproliferative syndrome (ALPS), an incurable, immunocompromising genetic disorder.11 Those with ALPS may
experience debilitating symptoms and severe health
conditions, including infections, autoimmune diseases, and lymphoma.12 Like many chronic diseases, however, ALPS may be successfully managed with medication and consistent medical attention.
Because the ACA ensures that Mr. Staggs can receive coverage through his parents’ plan until he turns
Autoimmune Lymphoproliferative Syndrome (ALPS), Nat’l
Inst. of Health (Apr. 19, 2019), https://www.niaid.nih.gov/diseasesconditions/autoimmune-lymphoproliferative-syndrome-alps.
11

Autoimmune Lymphoproliferative Syndrome (ALPS)
Symptoms & Diagnosis, Nat’l Inst. of Health (Apr. 19, 2019),
https://www.niaid.nih.gov/diseases-conditions/alps-symptomsdiagnosis.
12

18
26, Mr. Staggs has been able to receive the treatment
necessary to manage his condition while he pursues
his education. Moreover, by prohibiting discrimination
against applicants with preexisting conditions, the
ACA ensures that Mr. Staggs will be able to maintain
coverage and care once he ages out of his parents’ plan.
“I need constant care to manage my condition,” he explained. “It’s well-managed now and under control, but
if I did not have protection of access to healthcare
through the ACA then I don’t know where I would be.”
3. Healthcare outcomes in the United
States will deteriorate without the
ACA’s protections.
The ACA has measurably improved healthcare outcomes. By improving the cost and quality of health
insurance coverage, the ACA has enabled patients to
seek care regularly and access important health services. Research shows that expanding insurance coverage has led to greater use of both primary care and
specialty health services and improved access to prescription medications.13 Moreover, a number of studies suggest that this has resulted in promising improvements for certain health outcomes, including
early-stage cancer diagnosis and cardiovascular
health.14
See, e.g., Lena Leszinsky & Molly Candon, Primary Care
Appointments for Medicaid Beneficiaries with Advanced Practitioners, 17 Annals of Family Med. 363 (2019); Aparna Soni et al.,
How Have ACA Insurance Expansions Affected Health Outcomes? Findings from the Literature, 39 Health Aff. 371 (2020);
Adam J. Singer et al., US Emergency Department Visits and
Hospital Discharges Among Uninsured Patients Before and After Implementation of the Affordable Care Act, 2 JAMA Network
Open 1 (2019).
13

14

See Soni, et al., supra n.13, at 376 (collecting sources).

19
The experiences of healthcare providers reflect
these national trends. Marcus Sandling, M.D., a primary care physician at the Callen-Lorde Community
Health Center in New York, has noticed that patients
are significantly less likely to neglect their health under the ACA. “I’ve heard numerous stories of patients
and seen medical records with long stretches of time
with no care when they needed care. Now, they are
able to access care and do what we recommend,” Dr.
Sandling said. “Allowing a lot more people to become
insured by proxy allowed them to access these services [and] follow up with their healthcare needs.”
By expanding access to insurance, the ACA has allowed providers to diagnose problems earlier, prevent
serious conditions before they develop, and recommend more cost-effective treatments. For example,
Dr. Sandling observes that many of his patients can
successfully manage chronic conditions like diabetes
and high blood pressure with routine care and prescription medications, which became much easier to
access after the ACA was enacted.
Marilyn Ralat-Albernas, a registered nurse with more
than 15 years of experience in her hospital’s maternity
unit, similarly believes comprehensive insurance coverage is essential to ensure that expecting mothers receive
quality prenatal care. Detecting medical concerns earlier in pregnancy allows providers to determine an appropriate course of care before delivery, which can often
save a baby’s life. “Mothers suffering from cardiac issues,
diabetes, preeclampsia, or exacerbations of other conditions need specific care and education,” she explained.
“When the doctor catches these conditions on prenatal
visits, the outcomes are much better.”
Before the ACA went into effect, Ms. Ralat-Albernas
remembers that many expecting mothers who lacked

20
insurance did not have adequate prenatal care. “We
had a lot more baby deaths, and mothers whose hospital stay could’ve been a lot shorter had they known
they had certain conditions [before going into labor],”
she recalled. Under the ACA, however, Ms. Ralat-Albernas noticed that access to prenatal care has significantly improved. She now sees “healthier mothers with
healthier outcomes and healthier babies.”
Consistent with Ms. Ralat-Albernas’s observations,
the infant mortality rate declined between 2010 and
2016 in both Medicaid expansion and non-Medicaid
expansion states.15 This decline in infant mortality
was more than 50% greater in Medicaid expansion
states than non-expansion states.16 The shift in infant
mortality is especially profound for African-Americans:
the infant mortality rate decline in African-American
infants in Medicaid expansion states was more than
twice that in non–Medicaid expansion states.17
For Maleta Christian, a personal support worker
from Roseburg, Oregon, access to preventative care
saved her life. In 2013, Ms. Christian began receiving
comprehensive and affordable health insurance
through the Oregon Homecare Workers Supplemental
Trust and Benefits Trust, an entity made possible by
the ACA’s subsidies. Shortly after becoming insured,
Ms. Christian underwent testing as a part of a routine
gynecological exam that came back positive for cancer
cells. After having surgery several days later, she has
been cancer free ever since. “If it wasn’t for the ACA, I
was destined to probably die,” Ms. Christian said.
Chintan B. Bhatt et al., Medicaid Expansion and Infant
Mortality in the U.S., 108 Am. J. Pub. Health 565, 565–67 (2018).
15

16

Id.

17

Id.

21
For people living with conditions like cancer, having
health insurance can be determinative of health outcomes.18 While long term effects are still being observed, studies demonstrate a significant improvement in the number of early diagnoses of all cancer
types since passage of the ACA, particularly in Medicaid expansion states.19
Following the 2014 implementation of the ACA’s
insurance provisions, the number of emergency room
visits and hospital discharges for uninsured individuals declined considerably.20 If the ACA is voided,
medical providers predict that countless people will
be unable to afford regular care and will rely more
heavily on emergency services, often with catastrophic consequences. In her experience as a registered
nurse, Michelle Boyle has noticed that those without
insurance often forgo preventive care. When they finally seek medical care, uninsured patients often
present with acute medical conditions that are much
more difficult for providers to treat. Ms. Boyle believes that a decision striking down the ACA would
be profoundly traumatic for both patients and proSee Xuesong Han et al., Comparison of Insurance Status and
Diagnosis Stage Among Patients with Newly Diagnosed Cancer
Before vs. After Implementation of the Patient Protection and Affordable Care Act, 4 JAMA Oncology 1713 (2018). See also John A.
Graves & Katherine Swartz, Effects of Affordable Care Act Marketplaces and Medicaid Eligibility Expansion on Access to Cancer
Care, 23 Cancer J. 168 (2017); Anna Jo Smith & Amanda Fader,
Effects of the Affordable Care Act on Young Women with Gynecologic Cancers, 131 Obstetrics & Gynecology 966 (2018).
18

See Han, et al., supra n.18, at 1717; Graves & Swartz, supra
n.18; Smith & Fader, supra n.18.
19

Singer et al., supra n.13, Michelle P. Lin et al., Trends in
Emergency Department Visits and Admission Rates Among US
Acute Care Hospitals, 178 JAMA Internal Med. 1708 (2018).
20

22
viders. “People would be coming in the ER and just
dying,” she said.
Ms. Ralat-Albernas also expects continuity of care
to suffer if the ACA is struck down. “You’re going to
have a lot of people coming through the ER—what
we call acute cases, sicker people. They’re not going
to the doctor, not taking care of themselves, not doing physicals. There’s no treatment plan, no routine
testing that should be done,” she said. “It’s really
sad to see the same person, like a revolving door,
coming in and out and their condition not being taken care of adequately. They’re just going to come
back sicker.”
Ms. Boyle believes that providing affordable, comprehensive healthcare through the ACA reflects
American values. “The ACA is the first step of that
idea of America that I’m teaching to my kids. That
idea of looking out for one another,” she said. “That’s
how you have a strong society, instead of vultures just
circling until they can pick the pockets of people as
they’re dying. And that’s exactly what the ACA has
helped stave off.”
B. Striking down the ACA will weaken the
American economy.
In addition to the disastrous public health implications of stripping health coverage and protections
from nearly 30 million people, voiding the ACA will
also have catastrophic economic consequences for patients, their families, and the healthcare system.
Without the ACA, the number of uninsured Americans will skyrocket as individual health plans become prohibitively expensive for much of the population. Uninsured patients will face staggering medical
debt, jeopardizing not only their personal financial

23
security but also the economic viability of healthcare
institutions and providers burdened with uncompensated care.
1. Americans need access to affordable
healthcare to support themselves and
their families.
By providing access to affordable, comprehensive
health insurance, the ACA has reduced the risk of
medical out-of-pocket spending and improved financial security for millions of Americans.21 For example, in states that expanded their Medicaid programs
as a result of the ACA, one study shows that the financial health of state residents improved as measured by improved credit scores, reduced past due
balances on outstanding debt, reduced probability of
a medical collection balance of $1,000 or more, reduced probability of having one or more recent medical bills go to collection, reduction in the probability
of experiencing a new derogatory balance of any
type, and a reduction in the probability of a new
bankruptcy filing.22
For Colleen W., a musician and adjunct music professor from Fairport, New York, the ACA helped save her
family from financial ruin. On April 10, 2011, her husband died after battling cancer for four months, leaving
Colleen with two young sons. Even with insurance, her
husband’s medical bills were astronomical. “We were
See, e.g., Kyle J. Caswell & Timothy A. Waidmann, The Affordable Care Act Medicaid Expansions and Personal Finance,
276 Med. Care Res. & Rev. 538 (2017); Shiho Kino et al., Spillover Benefit of Improved Access to Healthcare on Reducing Worry
about Housing and Meal Affordability, 17 Int’l J. for Equity in
Health 1 (2018).
21

22

Caswell & Waidmann, supra n.21.

24
hemorrhaging cash for months after his death,” Colleen said. “My husband was only sick for four months.
He only had one chemo treatment and two surgeries.
But bills would come in in the five figures. And that
was with health insurance, while he was still alive and
had good coverage from his employer.”
When her husband passed away, Colleen was only
working part time and struggled to make ends meet
while caring for two small children. They were able to
stay on her husband’s employer-sponsored health plan
through COBRA, but coverage was available for only
three years and cost more than her mortgage. Their
premium started at $1500 and eventually reached
$1777. “It was the largest single bill every month, and
I just didn’t know how much longer I was going to be
able to do that,” Colleen recalled. “I didn’t know how I
could get a full-time job and afford childcare.”
When the ACA passed, Colleen and her children
qualified for Medicaid and she no longer had to worry
about becoming uninsured. “The ACA saved us. I could
now get health insurance without worrying every
month about my bills,” Colleen said.
Although Colleen is more financially secure today,
she continues to rely on the ACA to purchase affordable health insurance for herself and her children. Despite working three jobs, she does not work enough
hours at any one employer to qualify for health benefits. “I teach at two separate colleges, at a community
music school, I freelance when I can, but all that
doesn’t add up to employer-based health insurance.
Even though I’m working a lot more, without the ACA
I don’t have health insurance,” Colleen explained.
For the millions like Colleen who do not receive
health insurance through their employers, the ACA is

25
essential to ensure access to affordable care. Colleen
worries that these Americans are often overlooked. At
one of the colleges where she works, none of the adjunct professors qualify for health insurance, despite
constituting two thirds of the teaching staff. “People
think, oh, you work at a college, you must have a nice,
cushy job. No! I’m an adjunct,” Colleen said. “You start
to feel invisible. With anybody who works as much as
I do—and I’m always working—people assume they
have a full-time job and an affordable employer-based
health plan [even when] we don’t.”
Access to affordable healthcare also allows people to
successfully manage potentially disabling conditions
and become contributing members of society. Consider the experience of Cammie Hering, a personal support worker and member of SEIU Local 503 from Portland, Oregon. In the spring of 2007, Ms. Hering was
diagnosed with relapsing-remitting multiple sclerosis,
a potentially disabling chronic illness. Because she is
usually asymptomatic, Ms. Hering continues to work
and support herself. To remain asymptomatic, however, she requires ongoing medical care, including
daily medication and regular appointments with her
neurologist. Ms. Hering is paid only $15.50 per hour,
and managing her condition would be prohibitively
expensive without insurance.
Because she depends on federal subsidies to afford
health insurance, Ms. Hering could not access the healthcare she needs if the ACA were invalidated. “My health
insurance is $800 a month. I make $2000 a month. My
rent is $1600. That’s negative $200,” she explained. “I’m
not willing to live in my car, so I’d pay rent before I’d pay
[for] health insurance.” And even if she started making
more money, insurance companies might refuse to cover
Ms. Hering because of her preexisting condition.

26
Without the ACA, Ms. Hering worries that her condition will deteriorate to the point where she can no longer work. “I’m fully able as long as I have medical care,”
she said. “Pre-existing conditions don’t mean someone
is unable to work, but in many diseases such as mine,
unsupported it will become a problem. We will become
wards of the state and a burden to society.”
2. The ACA has stabilized the healthcare
system by creating reliable streams of
funding for hospitals that serve lowincome communities.
The ACA provides significant financial benefits for
healthcare providers and systems. Medicaid expansion alone has had substantial positive impacts on
safety-net hospitals in expansion states, with reduced
uncompensated care and better financial margins
compared to safety-net hospitals in non-expansion
states.23 Marcus Sandling, M.D., has worked as a primary care provider in community health systems for
most of his career. He believes the ACA has created a
more sustainable healthcare system. “Having the
ACA added a level of stability for the healthcare system, particularly for community-based care, smaller
health systems, [and] providers working with lower
income patients,” he said. “Once the ACA was in place,
See Allen Dobson, et al., Commonwealth Fund, Comparing
the Affordable Care Act’s Financial Impact on Safety-Net Hospitals in States that Expanded Medicaid and Those that Did Not
1–7 (2017). See also Susan Camilleri, The ACA Medicaid Expansion, Disproportionate Share Hospitals, and Uncompensated
Care, 53 Health Servs. Res. 1562 (2018); Alyssa Tilhou et al., The
Affordable Care Act Medicaid Expansion Positively Impacted
Community Health Centers and Their Patients, 35 J. Gen. Internal Med. 1292 (2020); Ge Bai et al., Charity Care Provision by US
Nonprofit Hospitals, 180 JAMA Internal Med. 606 (2020).
23

27
a lot of people could have their care reimbursed
through Medicaid.”
By causing millions of Americans to lose their health
insurance, striking down the ACA would increase the
burden of uncompensated medical care borne by hospitals and other medical care providers. Dr. Sandling
predicts that this would cause parts of our healthcare
system to collapse because many facilities could not
handle the amount of uncompensated care that many
people would require without the ACA. “There could
be catastrophic problems if this component of the
healthcare system were to disappear,” he said.
CONCLUSION
Voiding the ACA would endanger millions of Americans. This harm is completely unnecessary because,
contrary to the decision below, the plaintiffs lack
standing, the individual mandate is still constitutional, and the mandate is plainly severable from the rest
of the ACA. This Court should reverse the judgment of
the court of appeals.
Respectfully submitted,
Nicole G. Berner, General Counsel
Counsel of Record
Renee M. Gerni, Associate General Counsel
Claire Prestel, Associate General Counsel
John M. D’Elia, Assistant General Counsel
Monica Jin Joo Wilk, Law Fellow
Service Employees International Union
1800 Massachusetts Avenue NW
Washington, D.C. 20036
(202) 730-7466
Counsel for Amici Curiae
May 13, 2020

